CERTIFICATE OF SERVICE
NO.
In the Supreme Court of the United States

Julie Dalessio,
Petitioner
v.
UNIVERSITY OF WASHINGTON, a Washington Public Corporation;
Eliza Saunders, Director of the Office of Public Records;
Alison Swenson, Compliance Analyst;
Perry Tapper, Compliance Officer;
Andrew Palmer, Compliance Analyst; and
John or Jane Does 1-12.
Defendant-Appellees
Respondents.
I hereby certify that on February 24, 2021,1 Julie Dalessio, petitioner Pro Se,
served a PETITION FOR WRIT OF CERTIORARI re: No. 19-35675, U. S. Court of
Appeals for the Ninth Circuit to the following:
Jayne L. Freeman, WSBA #24318, Special Assistant Attorney General for
Respondents University of Washington; Eliza Saunders, Director of the Office of
Public Records; Alison Swenson, Compliance Analyst; Perry Tapper, Compliance
Officer; Andrew Palmer, Compliance Analyst; and Unnamed university employees,
John or Jane Does 1-12.
Electronic copies of the Petition were sent via email pursuant to the Court’s
order of April 15, 2020, and per agreement of counsel for respondents, (see
attached)
KEATING, BUCKLIN & McCORMACK, INC., P.S.
Jayne L. Freeman, WSBA #24318
Special Assistant Attorney General for Respondents
801 Second Avenue, Suite 1210 Seattle, WA 98104
Phone: (206) 623-8861
Fax: (206) 223-9423
Email: jfreeman@kbmlawyers.com

i

i
I declare under penalty of perjury that the foregoing is true and correct.
Executed on February 24, 2021.

Julie Dalessio
1110 29th Avenue
Seattle, WA 98122
Phone: (206) 324-2590
Email: juliedalessio@msn.com

j

2/20/21, 12:22 PM

RE: electronic service, Dalessio v. University of WA, Case No. 2:17-cv-00642
Jayne L. Freeman <JFreeman@kbmlawyers.com>
Fri 2/19/2021 12:18 PM
To: JULIE <juliedalessio@msn.com>; Derek C. Chen <DChen@kbmlawyers.com>; LaHoma Walker
<LWalker@kbmlawyers.com>

Ms. Dalessio: Based on the U.S. Code and appellate rules, it appears any
petition to the Supreme Court would be untimely (see below) and should not
be filed by the clerk.
Rule 13. Review on Certiorari: Time for Petitioning
1. Unless otherwise provided by law, a petition for a writ of certiorari to review a judgment in
any case, civil or criminal, entered by a state court of last resort or a United States court of
appeals (including the United States Court of Appeals for the Armed Forces) is timely when
it is filed with the Clerk of this Court within 90 days after entry of the judgment. A petition for
a writ of certiorari seeking review of a judgment of a lower state court that is subject to
discretionary review by the state court of last resort is timely when it is filed with the Clerk
within 90 days after entry of the order denying discretionary review.
2. The Clerk will not file any petition for a writ of certiorari that is jurisdictionally out
of time. See, e. g., 28 U. S. C. §2101 (cl
3. The time to file a petition for a writ of certiorari runs from the date of entry of the judgment
or order sought to be reviewed, and not from the issuance date of the mandate (or its
equivalent under local practice). But if a petition for rehearing is timely filed in the lower
court by any party, or if the lower court appropriately entertains an untimely petition for
rehearing or sua sponte considers rehearing, the time to file the petition for a writ of
certiorari for all parties (whether or not they requested rehearing or joined in the petition for
rehearing) runs from the date of the denial of rehearing or, if rehearing is granted, the
subsequent entry of judgment.

The order denying your petition for rehearing was issued on October 30,
2020. (DktEntry 51). 90 days from October 30, 2020 is January 28, 2021.
That being said, if you do file appellate pleadings with the court in this matter,
we will accept conformed copies of such pleadings via email. Our physical
office is closed, so you do not need to serve additional paper copies.
Thank you,
Jayne L. Freeman

WXlKX KEATING, BUCKEIN

IvjDlVl & mccormack

'

801 Second Avenue, Suite 1210
https://outlook.live.com/mail/0/inbox/id/AQQkADAwATc3AGZmAGUtODF...7psst?state=0&RpsCsrfState=78266839-f484-022e-f7da-7e79b4a9770f

Page 1 of 2

2/20/21, 12:22 PMj,

\

Seattle, WA 98104
Office: (206)623-8861
FAX: (206)223-9423
jfreeman@kbmlawyers.com
www.kbmfawyers.com

From: JULIE <juliedalessio@msn.com>
Sent: Friday, February 19, 2021 11:30 AM
To: Jayne L. Freeman <JFreeman@kbmlawyers.com>; Derek C. Chen
<DChen@kbmlawyers.com>; LaHoma Walker <LWalker@kbmlawyers.com>
Subject: electronic service, Dalessio v. University of WA, Case No. 2:17-cv-00642
I'm planning to file a petition for writ of certiorari, and so I'm writing to ask if you would accept
service by email.
The Court’s order of April 15, 2020, encourages parties to reach agreement among each
other to serve filings through electronic means only, eliminating the need for paper service.
https://www.supremecourt.aov/orders/courtorders/041520zr a204.pdf

(ORDER LIST: 589 U.S.) WEDNESDAY APRIL 15. 2020
ORDER IT IS ORDERED that with respect to every document
filed in a case prior to a
(ORDER LIST: 589 U.S.) WEDNESDAY, APRIL 15, 2020 . ORDER . In light of the ongoing
public health concerns relating to COVID-19: IT IS ORDERED . that with respect to every
document filed in a case prior to a
www.supremecourt.aov
Please let me know if you will accept service by email, or if you would prefer a paper copy,
thanks, julie dalessio

https://outlook.live.com/mail/0/inbox/id/AQQkADAwATc3AGZmAGUtODF...7psst?state=0&RpsCsrfState=78266839-f484-022e-f7da-7e79b4a9770f

Page 2 of 2

